                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13020025                                                                    Page 1 of 1



                We assessed an allegation of potential data fabrication of images in a publication that
         acknowledges NSF support. 1 We received a copy of an inquiry report completed by the
         university employing the authors. The inclusion of an incorrect image in a figure in the
         publication was acknowledged as an error; a correction has already been published. Other
         concerns conveyed in the allegation are not issues of research misconduct. There is no apparent
         substance to the allegation of research misconduct.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
